                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                          May 2011 Update



  Business Loan Programs                                              borrowers. He was also responsible for selling various
                                                                      delinquent loans to private equity investors. The
  California Man Sentenced                                            investigation disclosed that he recommended selling 25
  On May 2, 2011, a California businessman was                        delinquent loans for substantially less than they were
  sentenced in the U.S. District Court for the Central                worth. He recommended the sale of the loans to his
  District of California to 36 months in prison and 36                stepbrother, who owned an investment firm, and to his
  months supervised release. In addition, he was ordered              son-in-law and his firm. The defendant failed to disclose
  to pay $2,374,266.44, which includes nearly $766,160 to             to the SBA his familial relationships or the true value of
  the Small Business Administration (SBA) for                         each loan. The plea agreement stipulates that he forfeit
  fraudulently obtained loans and $1,608,106 to victim                $120,000, representing proceeds of the alleged fraud
  companies that leased him restaurant equipment and real             scheme between himself and the other two businesses.
  estate. The investigation revealed that he made false               He will be ordered to pay restitution that will include all
  statements on three applications for SBA-guaranteed                 proceeds and profits associated with the fraud scheme.
  loans. Specifically, he failed to disclose that he was a            This is a joint investigation with the Federal Bureau of
  defendant in two civil lawsuits that resulted in judgments          Investigation (FBI).
  against him and that he had numerous outstanding debts.
                                                                      New Jersey Branch Manager Pleads Guilty
  Michigan Title Company President Sentenced                          On May 11, 2011, in U.S. District Court, District of New
   On May 9, 2011, in the Eastern District of Michigan,               Jersey, a former branch manager pled guilty to an
  a title company president was sentenced to one day                  Information charging him with making false statements
  incarceration, four years of supervised release, and                and concealing material facts. The subject had assisted
  ordered to pay a fine of $8,000. He previously pled                 individuals in securing loans by falsifying site visit forms
  guilty to conspiracy to commit wire fraud. This                     for their businesses. Of the ten loans identified as being
  investigation revealed that subject conspired with others           brokered by subject, two loans, totaling $150,000, were
  and developed a scheme, unbeknownst to lenders, to pay              SBA-guaranteed. This is a joint investigation with the
  kickbacks to brokers and realtors in exchange for the               Internal Revenue Service–Criminal Investigations
  their utilization of her title company to conduct loan              Division, the Englewood New Jersey Police Department,
  closings. The plea included the forfeiture of                       and the Bergen County Prosecutor’s Office.
  approximately $492,000 in illicit proceeds held by the
  subject and her firm, which is no longer in business.               Disaster Loans
  This was a joint investigation with the United States
  Secret Service.                                                     Texas Man Sentenced to 15 Months in Prison
                                                                      A Texas man was sentenced on May 13, 2011, in U.S.
  Lender Relations Officer Pleads Guilty                              District Court for the Southern District of Texas, to 15
  On May 10, 2011, a former SBA lender relations officer              months in prison and four years supervised release.
  pled guilty in the Northern District of Illinois to one             A determination of the amount of restitution owed by the
  count of wire fraud. The charges related to entries he              subject was deferred until August 13, 2011. The subject
  made into SBA databases, which traveled electronically              received a business loan for Hurricane Rita damage
  across state lines. The subject was responsible, in part,           totaling $196,300. The investigation revealed that he
  for resolving issues related to the charge-off of SBA               submitted fictitious receipts and estimates to the SBA.
  business and disaster loans that were secured with real             It was determined that estimates and paid invoices
  estate as collateral. His duties included determining the           submitted for equipment that was supposedly bought had
  current market value of the properties, securing the loans,         in fact, not been purchased. The subject had also applied
  and determining if the assets could be recovered from               for a Hurricane Ike business and home loan. These

Monthly Update on Activities of the SBA Office of Inspector General
loans were put on hold pending the outcome of the fraud               selected the firm for this project even though it was not
allegations relating to the Hurricane Rita loan. In                   HUBZone certified. The subject ultimately falsified the
addition, on his SBA loan application, the subject                    required HUBZone certification that was provided to the
answered “no” to ever being convicted of a criminal                   USFS. This is a joint investigation with the FBI.
offense or ever being indicted or on probation. A review
of his criminal history revealed that he had been arrested
numerous times and convicted of various crimes, to                           This update is produced by the SBA OIG,
include possession of a controlled substance, burglary,                       Peggy E. Gustafson, Inspector General.
resisting arrest, destruction of property, malicious
mischief, burglary of a vehicle, and assault. Lastly, a               The OIG has established an e-mail address, oig@sba.gov
review of bank records revealed that he had used SBA                  that we encourage the public to use to communicate with
loan money to pay off his Chapter 13 bankruptcy, as well              our office. We welcome your comments concerning this
as for college tuition for his daughter, new furniture, a              update or other OIG publications. To obtain copies of
car for his wife, and loans to his family and friends. The                        these documents please contact:
investigation determined that of the $196,300 loan from
SBA, he spent approximately $50,000 on actual business                                      SBA OIG
property and expenses.                                                            409 Third Street SW., 7th Floor
                                                                                      Washington, DC 20416
Texas Brothers Charged in Disaster Fraud                                               E-mail: oig@sba.gov
On May 18, 2011, in the Southern District of Texas, two                          Telephone number (202) 205-6586
brothers were each charged with one count of conspiracy                            FAX number (202) 205-7382
and one count of fraud in connection with a major
disaster. One brother, a real estate broker and a Houston              Many OIG reports can be found on the OIG’s website
area bank director, was approved for $999,700 in home
and business Hurricane Ike disaster loans. The                             http://www.sba.gov/office-of-inspector-general
indictment alleges that he engaged in a fraudulent invoice
scheme, where he submitted to SBA, inflated and false                      If you are aware of suspected waste, fraud, or
invoices for repairs to his residence and rental properties.            abuse in any SBA program, please report it online at:
It also alleges that he claimed that Hurricane Ike had
damaged a rental property; however, the investigation                   http://www.sba.gov/office-of-inspector-general/2662
determined that the property had actually been damaged
by an intentional fire. This case was based upon a                       Or call the OIG Hotline toll-free at (800) 767-0385
referral from the SBA Processing and Disbursement
Center in Fort Worth, Texas and is being conducted
jointly with the Department of Homeland Security-Office
of Inspector General.


Government Contracting & Business
Development
Fencing Firm Employee Pleads Guilty in New Mexico
On May 2, 2011, in U.S. District Court for the District of
New Mexico, a man pled guilty to an information
charging him with intent to convert to his use or gain
public money, property, or records. He was sentenced on
the same date to 48 hours in prison, a $2,000 fine, and
two years of unsupervised release. The subject was an
employee of a fence building company in New Mexico
that bid on a project to build a road for the U.S. Forest
Service (USFS). This project was an SBA set-aside
contract for Historically Underutilized Business Zone
(HUBZone) businesses. Based on representations that
this company was a HUBZone business, the USFS



Update on the Activities of the SBA Office of Inspector General   2                                       May 2011
